     THE BUREAU OF ALCOHOL, TOBACCO, FIREARMS AND
   EXPLOSIVES’ AND FEDERAL BUREAU OF INVESTIGATION’S
     ARSON AND EXPLOSIVES INTELLIGENCE DATABASES

                               EXECUTIVE SUMMARY


      The two principal federal agencies responsible for compiling data
related to arson and explosives incidents in the United States are the
Bureau of Alcohol, Tobacco, Firearms and Explosives (ATF) and the
Federal Bureau of Investigation (FBI). To collect such data, the ATF
created the Arson and Explosives National Repository (Repository) and
the FBI created the Bomb Data Center (BDC). Over each of the past
3 years, the ATF received about 1,800 reports of arson and 700
reports of bombing incidents. During that same time, the FBI received
about 900 reports of bombing incidents annually.1

      Both the ATF’s Repository and the FBI’s BDC maintain databases
that collect and disseminate information for statistical analysis and
research, investigative leads, and intelligence. The databases
maintained by the Repository are the Arson and Explosives Incident
System (AEXIS) and the Bombing Arson Tracking System (BATS). In
addition, the ATF maintains N-Force, a case management system that
is available only to ATF law enforcement personnel. The database
maintained by the FBI’s BDC is the Automated Incident Reporting
System (AIRS), which is accessible through Law Enforcement Online
(LEO).2

      Information in these databases help investigators identify
suspects, case-specific similarities regarding explosive and incendiary
device construction, methods of initiation, types of fuels and
explosives used, and methods of operation in explosives or arson
cases. The databases are also designed to help investigators link
thefts of explosive materials with criminal misuse of the explosives.
Lastly, the databases can assist federal, state, and local law
enforcement and fire agencies track criminal cases involving arson and
explosives.


       1
           The BDC does not normally receive and record arson-only incidents.

       2
           LEO is a restricted online service that provides a secure means of communication for
federal, state, and local law enforcement and public safety personnel.
Scope of Office of the Inspector General Audit

      The Office of the Inspector General (OIG) audited the operation
of the ATF’s and the FBI’s databases that compile information on arson
or bombing incidents. Our audit objective was to examine overlap
between the systems and evaluate whether the Department of Justice
(Department) has efficiently and effectively collected, and made
available to the federal, state, and local law enforcement community,
information involving arson and the criminal misuse of explosives.

       We focused on the ATF and the FBI database systems and their
policies and procedures to collect and disseminate arson and
explosives data. We visited ATF Headquarters in Washington, D.C.;
the FBI’s BDC in Quantico, Virginia; Louisiana State University (LSU) in
Baton Rouge, Louisiana, where contract staff enter data into the FBI’s
database; the Glendale, Arizona, Fire and Police Department; and the
Maine State Fire Marshals Office in Gardiner, Maine.3

      We interviewed ATF and FBI officials who manage the database
systems; LSU contract staff; and representatives of 48 federal, state,
and local field offices and the United States Fire Administration
concerning the operation and use of the databases. We also reviewed
system controls and data entry and retrieval procedures, and we
performed tests of system accuracy and timeliness.

Findings

Duplication of Effort

       We found that the Department has not efficiently and effectively
collected and made available to the federal, state, and local law
enforcement community information relating to arson and the criminal
misuse of explosives. Specifically, the similar responsibilities of the
ATF and the FBI in compiling data have resulted in duplication of
effort, confusion and duplicate reporting of incidents by state and local
agencies, and a lack of uniformity in the reporting process. The
overall purposes of the ATF and the FBI databases are similar, and
many data fields in each system are identical. As a result, customers
do not have a single, comprehensive source for obtaining intelligence
information on arson and explosives matters to assist in their
investigations. This condition stems partly from statutory and

        3
          The Glendale, Arizona, Fire and Police Department and the Maine State Fire
Marshals Office in Gardiner, Maine, were the only two state or local law enforcement agencies
in which the ATF’s new BATS system was used at the time of our audit.



                                              ii
regulatory overlap concerning the responsibility to compile data, and
also because of a lack of agreement between the ATF and the FBI on
how to ensure that duplication is avoided.

      On January 14, 2004, we briefed Office of the Deputy Attorney
General (ODAG) officials about the results of our audit work. In March
2004, the Attorney General directed the ATF and FBI to identify options
and make recommendations concerning the possible merger of their
databases. The ODAG was to review the ATF’s and FBI’s
recommendations and report to the Attorney General. On July 6, 2004,
we advised the ODAG that we had not seen any changes in the
conditions we described in our January briefing.

       On August 11, 2004, the Attorney General directed: 1) the ATF
and the FBI to consolidate all of the Department’s arson and explosives
incidents databases, including, but not limited to, the ATF’s BATS, and
the FBI’s AIRS, into a single database; and 2) that all consolidated
arson and explosives incident databases be maintained by the ATF (See
Appendix VI for details of the Attorney General’s August 11, 2004
directive). On the basis of our analysis of the strengths and weaknesses
of each system, we are recommending what features the consolidated
system should have. Implementation of our recommendations will
eliminate duplication of effort, ensure consistency in reporting practices,
and facilitate sharing of intelligence among law enforcement agencies.

Data Accuracy

      We tested the accuracy of a sample of the intelligence
information in the ATF’s AEXIS and BATS databases and the FBI’s AIRS
database by comparing a sample of database output to source
documents. Although we found errors in both the ATF and the FBI
systems, the ATF’s databases were much more reliable than the FBI
system with respect to data accuracy.

      ATF. Our review of the AEXIS database found a total of
10 errors among the 1,584 data fields (0.6 percent) we tested.4 Our
review of the BATS database found 3 errors among the 244 data fields
(1.2 percent) we tested. The errors occurred because data from
source documents was not entered into the system correctly. These
errors were not detected by the ATF’s system for sampling a

       4
         We also examined 26 records entered into the Explosives Tracing feature of AEXIS
and found 16 errors. Because this feature does not generate a report, we were unable to
determine the number of applicable fields to calculate an error rate.




                                            iii
percentage of output documents for accuracy. Some of the errors in
AEXIS occurred because the selection of options within the AEXIS
drop-down menus was too limited and the available options did not
adequately describe information included on source documents.

       FBI. Our review of the AIRS database found a total of 730 errors
among the 7,481 data fields (9.8 percent) we tested. The BDC and
contract staff who entered the data stated that many errors occurred
because a feature within the AIRS automatically completes certain
fields based on outdated information entered previously into LEO.
Additionally, contract staff stated that data was lost when the BDC
upgraded the system, and the BDC’s management controls were
insufficient to detect or prevent the errors.

Timeliness of Data Entry and Responsiveness to Customers

      To test the timeliness of data entry and responsiveness to
customer requests, we: 1) examined a judgmental sample of data
submitted by contributing agencies to determine how quickly it was
entered into the ATF’s AEXIS and the FBI’s AIRS databases, and
2) surveyed a sample of agencies to determine how quickly the ATF
and the FBI responded to their inquiries. We found that data in the
ATF’s AEXIS system was more current than data in the FBI’s AIRS
system, and we found significant weaknesses in the AIRS data entry
process. We also found that the ATF and the FBI responded fairly
quickly to requests from outside customers, but neither had
implemented controls to track the timeliness of its responses.

      ATF. The ATF’s staff stated that information is entered into the
AEXIS database as soon as it is received. However, we could not
verify this because the ATF did not date stamp documents and the
AEXIS database did not have automated indicators to show when data
is entered.

       The ATF did not record the dates of outside requests for
intelligence information or the dates of its responses. However, the
requesting agencies we surveyed provided favorable ratings on the
ATF’s timeliness. According to our interviews with agencies submitting
requests to the ATF, 7 agencies indicated they received information
they requested from the ATF immediately, 2 within 1 day, 13 within a
week, and only 1 in a week or more.

      FBI. Similar to the ATF, the FBI’s BDC staff and contract LSU
data entry staff did not date stamp source documents used to populate


                                  iv
the AIRS database. Further, the FBI had no indicators to determine
when the documents were entered into the system. However, we
found a large backlog of source documents containing data that had
not been entered into AIRS by contract LSU staff. In August 2003,
data from at least 5,745 Activity Reports and 770 Incident Reports
were more than 4 years old and still had not been entered into the
system. This occurred because the BDC accumulated reports without
entering them into the system or sending them to LSU to be entered.
According to LSU staff, as of July 2004 the backlog has been
eliminated.

     As with the ATF, the FBI did not record the dates of outside
requests for intelligence information or the dates of its responses.
Again, agency officials provided favorable ratings on timeliness.
According to our surveys of agencies submitting inquiries to the FBI,
three agencies indicated they received the information they requested
from the FBI immediately, two within a day, four within a week, and
only one in a week or more.

     The details of our work are contained in the Findings and
Recommendations section of the report. Our audit objectives, scope,
and methodology are contained in Appendix I.




                                  v
                                   TABLE OF CONTENTS


INTRODUCTION ..............................................................................         1
  Background...................................................................................     1
  Bureau of Alcohol, Tobacco, Firearms, and Explosives (ATF)...................                     1
  ATF Databases ..............................................................................      2
  ATF System Under Development .......................................................              5
  Federal Bureau of Investigation (FBI).................................................            6
  FBI Database.................................................................................     7
  FBI System Under Development........................................................              8

FINDINGS AND RECOMMENDATIONS .................................................. 9

DUPLICATE SYSTEMS ARE MAINTAINED BY THE ATF AND FBI
  FOR REPORTING ARSON AND EXPLOSIVES INCIDENTS ............... 9
  Duplication in Reporting.................................................................. 9
  Legislative History Resulting in Duplication......................................... 11
  ATF ............................................................................................. 11
  FBI ............................................................................................. 12
  Comparison of ATF and FBI Database Systems.................................. 13
  Accessibility.................................................................................. 13
  Data Collection.............................................................................. 17
  User Interface............................................................................... 19
  Data Fields ................................................................................... 21
  Types of Outputs ........................................................................... 22
  Data Sharing Capabilities ................................................................ 22
  Accuracy...................................................................................... 23
  Timeliness of Data Entry and Responsiveness to Customers .................. 30
  ATF, FBI, and Departmental Efforts to Define Responsibility for Data
    Collection and Management.......................................................... 32
  Conclusion ................................................................................... 34
  Recommendations .............................................................................37

STATEMENT ON COMPLIANCE WITH LAWS AND REGULATIONS ..... 38

STATEMENT ON MANAGEMENT CONTROLS..................................... 39

APPENDIX I – AUDIT OBJECTIVES, SCOPE, AND METHODOLOGY ... 40

APPENDIX II – SURVEY QUESTIONNAIRE AND RESULTS ................ 44

APPENDIX III – AGENCIES INTERVIEWED BY TELEPHONE ............. 49
APPENDIX IV – OUTLINE OF THE FEATURES OF THE NATIONAL
              REPOSITORY AND BDC DATABASES ...................... 51

APPENDIX V - SUMMARY OF THE DATA FIELDS FOR THE
             DATABASES OF THE ATF NATIONAL
             REPOSITORY AND FBI BOMB DATA CENTER ............ 54

APPENDIX VI - ATTORNEY GENERAL’S AUGUST 11, 2004,
              MEMORANDUM REGARDING THE
              COORDINATION OF EXPLOSIVES
              INVESTIGATIONS AND RELATED MATTERS ............ 60

APPENDIX VII - BUREAU OF ALCOHOL, TOBACCO, FIREARMS
               AND EXPLOSIVES’ RESPONSE TO THE DRAFT
               AUDIT REPORT ..................................................... 63

APPENDIX VIII – FEDERAL BUREAU OF INVESTIGATIONS’
                RESPONSE TO THE DRAFT AUDIT REPORT........... 64


APPENDIX IX – OFFICE OF THE INPECTOR GENERAL, AUDIT
              DIVISION ANALYSIS AND SUMMARY OF
              ACTIONS NECESSARY TO CLOSE THE REPORT ........ 66
                           INTRODUCTION


Background

       The two principal federal agencies responsible for collecting data
related to explosives incidents in the United States are the Bureau of
Alcohol, Tobacco, Firearms, and Explosives (ATF) and the Federal
Bureau of Investigation (FBI). These two agencies collect and compile
information supplied by federal, state, and local law enforcement
agencies regarding arson and the illegal use of explosives. The ATF
received about 1,800 reports of arson and 700 reports of bombing
incidents over each of the past 3 years. (On August 19, 2004, FBI
officials commented that many of the reports claimed by the ATF were
furnished by the FBI and were already entered into the FBI’s
database.) The FBI received about 900 reports of bombing incidents
annually during that period. The FBI does not normally receive and
record incidents involving only arson.

      To collect such data, the ATF operates the Arson and Explosives
National Repository (Repository) and the FBI operates the Bomb Data
Center (BDC). The Repository and the BDC both maintain databases
that collect and disseminate information used for statistical analysis
and research, investigative leads, and intelligence. The information
contained in these databases is available to federal, state, and local
law enforcement agencies to assist them with their investigations of
arson, bombing, and explosive incidents. The databases maintained
by the ATF’s Repository are the Arson and Explosives Incident System
(AEXIS) and the Bombing Arson Tracking System (BATS). The
database maintained by the FBI’s BDC is the Automated Incident
Reporting System (AIRS).

Bureau of Alcohol, Tobacco, Firearms and Explosives (ATF)

      Until March 2003, the ATF was within the Department of the
Treasury. With the passage of the Homeland Security Act of 2002, the
regulatory and revenue collecting functions relating to alcohol and
tobacco were realigned within the newly created Alcohol and Tobacco
Tax and Trade Bureau of the Department of the Treasury. The ATF
was transferred as a bureau to the Department of Justice
(Department), where it has the following responsibilities:

      •   Suppressing and preventing crime and violence through
          enforcement, regulation, and community outreach.



                                    1
      •   Supporting and assisting federal, state, local, and
          international law enforcement.

      •   Providing training programs in support of criminal and
          regulatory enforcement functions.

      On September 30, 1996, Public Law 104-208 (110 Stat. 3009),
the Omnibus Consolidated Appropriations Act of 1997 (Act), was
enacted. The Act amended the Federal Explosives laws in Title 18,
United States Code (U.S.C.), Chapter 40. As amended, section 846(b)
authorizes the Secretary of the Treasury to establish a national
repository of information on incidents involving arson and the
suspected criminal misuse of explosives. This section also requires all
federal agencies having information concerning such incidents to
report the information to the Secretary. This includes information
regarding arson and explosives incidents investigated by a federal
agency, as well as other sources (e.g., a state or local agency) and
criminal dispositions, if any. In addition, the law provides that the
repository will contain information on incidents voluntarily reported to
the Secretary by state and local authorities. The Secretary gave the
ATF the responsibility to establish the Repository.

ATF Databases

      AEXIS. In 1975, the ATF Headquarters Explosives Division
established a database of explosives incidents known as the Explosives
Incidents System (EXIS). With the addition of arson incidents to the
database in 1998, EXIS was appropriately renamed the Arson and
Explosives Incident System (AEXIS). As set forth in Title 18 U.S.C.
846(b), all federal agencies are required to report information
concerning explosives and arson incidents to the ATF’s Repository.
Although state and local submissions are voluntary, many such law
enforcement agencies routinely submit information to the Repository.

      Data used to populate the AEXIS system originates from law
enforcement agencies. The predominant contributor is the ATF itself.
Data is also contributed by state and local law enforcement agencies.
The Repository’s policy is to accept only data that is specific to fire,
arson, bombings, and other criminal misuse of explosives, such as
theft and recoveries of explosive materials.

      ATF agents, field staff, and outside law enforcement agencies
also request data from Repository staff. In most cases, requests for
information on arson and explosives cases are made in writing. The



                                    2
Repository also receives written requests from the general public,
academia, and professional associations, but information released to
such requestors is limited to general statistical data.
       According to ATF staff, more than 100,000 reports have been
entered into the EXIS and AEXIS databases since their creation in
1975. Data from ATF agents, which accounts for most of the data in
AEXIS, is automatically transferred and manually accepted into AEXIS
from N-Force, a case management system that is available to ATF
staff. The N-Force system is designed as a single point of data entry
system. Case information is entered once, and can be used in multiple
areas throughout the system. In addition, N-Force automatically
generates and formats reports and forms by extracting data previously
entered into the system. The AEXIS Incident Reports derived from
N-Force include the following data:

     Nature of Incident: Bombing, attempted bombing, recovery of
     explosive devices (IED), accidental explosion, hoax device, theft
     of explosives, recovery of explosives, and lost or missing
     explosives.

     Reporting Agency Data: Agency name, address, telephone
     number, and department case number.

     Incident Data: Date, time, address, target, structure, motive,
     entry method, device delivery, dollar loss, incident involvement,
     suspects (name, social security number, birth date), and
     arresting agency.

     Device Data: Component type, common name, brand name,
     component use, manufacturer, country, material, quantity
     (amount, units, model number, length, width, diameter, color,
     height, percent, and leg wire length).

     In addition, AEXIS provides the ATF with the following features:

     •   Tracing feature within AEXIS. The Repository provides
         explosives tracing services for duly authorized law
         enforcement agencies in the United States and those in many
         foreign countries. Tracing is the systematic tracking of
         explosives from manufacturer to purchaser (and/or
         possessor) for the purpose of aiding law enforcement officials
         in identifying suspects involved in criminal violations,
         establishing stolen status, and proving ownership.




                                   3
           Explosives manufacturers, importers, wholesalers, and retail
           dealers in the United States and foreign countries cooperate
           in the tracing effort by providing, on request, specific
           information from their records of manufacture, importation,
           or sale of explosives.

       •   Theft and loss feature within AEXIS. Title XI of the Organized
           Crime Control Act of 1970 (18 U.S.C. Chapter 40) requires all
           possessors of explosives materials to report theft or loss of
           such explosive materials. The reporting requirements apply
           to thefts from or losses by individuals as well as businesses.

           Any person who has knowledge of the theft or loss of
           any explosive materials from their stock must report
           the theft or loss within 24 hours of discovery to the ATF
           and to appropriate local authorities.5

        Access to AEXIS is given to all Repository employees designated
as authorized users. Each user must be cleared for top-secret
accessibility by the ATF headquarters. However, only certain
designated personnel have administrator privileges, which allow them
to change information already in the system. Passwords are required
at all levels of entry into the AEXIS system, including the web-based
versions.

      ATF officials stated that at the headquarters level, the ATF's
Information Services Division receives reports of any unauthorized
access attempts from within the ATF and from outside hackers. We
observed that all computer hardware, including servers, is located in
secure areas that are locked and accessible to only the ATF authorized
personnel.

      Bomb Arson Tracking System (BATS). BATS is a new ATF
database designed to serve the ATF and the nation’s fire and
investigative agencies by providing a comprehensive system for
reporting and sharing information on bombing and arson incidents.
Similar to AEXIS with regard to the type of information it collects,
BATS is unique in that it is accessible to its users on-line. At the time
of our review, BATS was in the pilot phase and was deployed only to
the Maine State Fire Marshals Office and the Glendale, Arizona Fire and
Police Department. When BATS is fully deployed, the ATF expects that

       5
           According to Regulations at 27 CFR § 55.30, implementing section 842(k), the
report of theft or loss must be made by telephone and in writing to the ATF.




                                             4
law enforcement agencies will be able to share real-time information in
a secure system dedicated to fire and post-blast incidents. According
to the ATF, BATS will also offer bomb squad staff the ability to see
real-time data about improvised explosive and incendiary devices
being used nationwide. At the time of our review, ATF staff said the
system contained about 900 reports. They also said that BATS will
eventually be used instead of AEXIS, although a specific timetable had
not been established.

ATF System Under Development

       DFuze. DFuze is a stand-alone system that will enable
international law enforcement and allied government organizations to
collect, store, retrieve, and print data related to a particular incident,
explosive device, perpetrator, group involved, and method of bomb
delivery. Each organization will be able to populate the system with its
own data and intelligence, as well as have the ability to share this data
with other agencies when needed.

        Implementation of the DFuze system began in June 2004; as of
July 2004 the system has been populated with incidents of
international origin. In addition, DFuze contains technical reference
information related to national and international arson and explosives.
As of late June 2004, about 930 records and 2,275 technical and
media references had been entered in the system. A total of seven
licensed users were authorized to use the system. The authorized
users consisted of individuals from the ATF National Repository and the
ATF’s Colombia and Mexico offices.

       The data fields within DFuze are designed to give different
countries’ organizations the ability to translate data field labels into
their own language and to create additional records while retaining the
core database structure. Data fields are standard to all versions of
DFuze used within the international community and are designed to
ensure consistency.

      DFuze provides investigators and analysts with built-in tools for
imaging, record transmission and receipt, high-speed data search,
multi-media intelligence management, and the ability to hard copy
reports. Further, DFuze offers a multilingual user interface whereby
menus are translated to the language selected by the end user.




                                    5
Federal Bureau of Investigation (FBI)

       Pursuant to 28 U.S.C. 534, the Attorney General is responsible
for acquiring, collecting, and classifying crime records and related
information. The Uniform Federal Crime Reporting Act of 1988
clarified the obligations of the Attorney General, FBI, and other federal
agencies. This Act recognizes that the FBI “compiles nationwide
criminal statistics for use in law enforcement administration, operation,
and management and to assess the nature and type of crime in the
United States.” It also provides that “the Attorney General shall
acquire, collect, classify, and preserve national data on federal criminal
offenses as part of the Uniform Crime Reports” (UCR) authorized under
28 U.S.C. 534. The Act further specifies that “the Attorney General
may designate the Federal Bureau of Investigation as the lead agency
for purposes of performing the functions authorized by this section”
and requires that:

       All departments and agencies within the federal government
       (including the Department of Defense) that routinely investigate
       complaints of criminal activity shall report details about crime
       within their respective jurisdiction to the Attorney General in a
       uniform manner and on a form prescribed by the Attorney
       General.

      This statutory requirement has been supplemented by Attorney
General regulations published at 28 C.F.R. 0.85(f), which provide that
the Director of the FBI “shall…operate a central clearinghouse for
police statistics under the Uniform Crime Reporting Program.”

      Like the ATF’s Repository, the FBI’s Bomb Data Center (BDC)
also provides a system for collecting data related to arson and
bombing incidents. According to FBI staff, the BDC’s system contained
data from over 72,000 reports as of April 2004.5

      According to FBI officials, since 1972 the BDC has collected and
reported bombing information to public safety agencies and other
interested parties. The BDC also provides technical training in
explosive device recognition and handling to all public safety bomb
disposal personnel.


       5
          The BDC began as the National Bomb Data Center in 1970. It was initially funded
through the Law Enforcement Assistance Administration and managed by the International
Association of Chiefs of Police. In 1972, the administration of the program was transferred to
the FBI.



                                              6
      The BDC is now responsible for a wider range of duties,
including:

      •   Gathering information on bombing incidents in the United
          States.

      •   Exchanging information on bombing incidents with
          international bomb data centers.

      •   Researching and developing public safety bomb technician
          related tools and techniques.

FBI Database

       Automated Incident Reporting System (AIRS). The BDC
contracted with Louisiana State University (LSU) as part of the Law
Enforcement Online (LEO) project to develop AIRS. The AIRS database
is designed to give law enforcement agencies the capability to report
incidents online through LEO involving explosive and incendiary
bombings, hoax bombs, recoveries of explosives, military ordnance
and improvised explosive devices. In its September 23, 2004,
response to the draft report, FBI officials said the FBI implemented the
COBRA system in 1998 as part of an FBI program to equip state and
local bomb squads recognize and detect materials involving weapons
of mass destruction. According to the FBI, accredited bomb squads
have had the ability to enter data directly into AIRS since 1999.
However, the BDC advised us on October 1, 2004, that COBRA data
had not yet been entered into the AIRS database.

      The FBI also contracted with LSU to perform data entry of
Incident and Activity Reports into the BDC’s AIRS database. In July
2002, LSU personnel began providing data entry support via AIRS’
online system in LEO to assist the BDC to eliminate its backlog of
Incident and Activity Reports. According to BDC staff, as reporting
agencies acquire access to LEO they will eventually be authorized to
enter data directly into AIRS.

      Within LEO there are several layers of passwords needed to
access the system. After non-FBI agencies receive approval from the
BDC, the agencies are allowed access to statistical information
available in the database as a read-only user. Unauthorized attempts
to access either the AIRS or LEO systems are monitored by the
information technology division at FBI headquarters. All AIRS-capable




                                   7
computers are located in the BDC office, which is secured from outside
access.

FBI System Under Development

      Explosives Reference Tool (EXPeRT). According to FBI officials,
EXPeRT is a Windows-based system being developed to meet the FBI’s
current and future forensic and technology needs. The system will
permit immediate online search and retrieval of case documentation
and reference material to aid examiners in forensic examinations.

      The EXPeRT database will include all FBI forensic examination
reports pertaining to cases involving explosives, rather than bombing
Incident Reports or preliminary information. It will include only FBI
forensic analyses and reported results that have undergone FBI peer
review. According to FBI officials, an unclassified version of the
database will be available to state and local crime laboratories in fiscal
year (FY) 2005.




                                    8
                 FINDINGS AND RECOMMENDATIONS

     DUPLICATE SYSTEMS ARE MAINTAINED BY THE ATF AND
     FBI FOR REPORTING ARSON AND EXPLOSIVES INCIDENTS

     We found that the ATF and the FBI systems for collecting and
     disseminating arson and explosives intelligence are
     duplicative. Although the respective systems have some
     unique features, their overall purpose is the same and many
     of the data fields are identical. This condition occurred
     because both the ATF and the FBI are charged with similar
     responsibilities for collecting and disseminating such
     information, and the two agencies have not collaborated to
     develop a single system that serves the needs of their
     customers. As a result, customers do not have a single
     source to which they report incidents or a consolidated source
     for obtaining information to assist in their investigations.

     In addition, we found significant differences in the ATF’s and
     FBI’s performance in managing their databases. We found
     minimal errors among the data fields tested in the ATF’s
     AEXIS and BATS databases. However, we found a
     significantly higher error rate among the data fields tested in
     the FBI’s AIRS database. Errors in the ATF and FBI databases
     occurred because of system limitations and because of
     inadequate polices and procedures for receiving and entering
     data. Customers of both the ATF and FBI provided favorable
     responses regarding the timeliness of services. However, in
     August 2003, the FBI’s BDC had a backlog of 5,745 Activity
     Reports and 770 Incident Reports that had not been entered
     into AIRS by contract Louisiana State University (LSU) staff,
     resulting in intelligence information being unavailable to
     customers in a timely manner. According to LSU staff, as of
     July 2004 the backlog has been eliminated.

Duplication in Reporting

       The overall purpose of the ATF and FBI database systems is the
same: to collect, and make available to the law enforcement
community, information related to incidents of bombing or arson. We
found duplication of effort and a lack of consistency in reporting
practices among the agencies that report arson or explosives
intelligence information to the ATF and the FBI.




                                  9
       In the course of our audit, we interviewed a judgmental sample
of 48 federal, state, and local law enforcement agency officials by
telephone (See Appendix III). Our sample included bomb squads,
sheriff’s departments, police departments, ATF and FBI field offices,
and the United States Fire Administration. The agencies we contacted
served 11 of the largest cities in the United States, as follows:

      New York City
      Los Angeles
      Chicago
      Houston
      Philadelphia
      Phoenix
      San Diego
      Dallas
      San Antonio
      Detroit
      Atlanta

      We asked representatives of the agencies, “To which federal
agencies do you normally report incidents?” We also asked, “How do
you decide to which agency you report arson or explosives incidents?”
As the following chart shows, we found little consistency to whom the
48 agencies reported data.


                                    Agency Reported Data To
  Agency Interviewed     ATF Only    FBI Only   ATF & FBI     Neither
ATF Field Offices           6
FBI Field Offices                        7          1
US Fire Administration      1
Non-Federal Agencies        5            10        15           3



      Four of the 15 non-federal agencies that reported to both the
ATF and the FBI indicated they report all incidents to both agencies.
One of the 15 indicated it reported “most” incidents to both the ATF
and the FBI. Three of the remaining ten indicated they report “some”
incidents to both the ATF and the FBI. Seven of the FBI field offices
were not reporting incidents to the ATF as required by Title 18, United
States Code (U.S.C.), Chapter 40, section 846(b).

      The reporting policies among the non-federal agencies were
inconsistent, and they differed widely regarding the criteria they used




                                    10
for deciding to whom they report incidents. Examples of responses to
our questions regarding reporting policies include:

      •   Agency “prefers” reporting to the ATF

      •   Agency will “report arson to ATF if the sheriff decides it can
          be used by ATF”

      •   Agency believes it is “mandated to send to FBI”

      •   Agency believes terrorism must be reported to both ATF and
          FBI

      •   Agency believes “domestic crackpot” incidents should be
          reported to the ATF but “domestic terrorist” incidents should
          be reported to the FBI

      The lack of consistent policies and practices among reporting
agencies on where to report arson and explosives incidents can create
confusion on the part of the reporting agencies and duplication in
reporting.

Legislative History Resulting in Duplication

ATF

     On September 30, 1996, Public Law 104-208 (110 Stat. 3009),
the Omnibus Consolidated Appropriations Act of 1997 (Act), was
enacted. The Act amended the Federal Explosives laws in Title 18,
U.S.C., Chapter 40. As amended, section 846(b) states, in part:

      The Secretary (of the Treasury) is authorized to establish a
      national repository of information on incidents involving arson and
      the suspected criminal misuse of explosives. All Federal agencies
      having information concerning such incidents shall report the
      information to the Secretary pursuant to such regulations as
      deemed necessary to carry out the provisions of this subsection.
      The repository shall also contain information on incidents
      voluntarily reported to the Secretary by State and local
      authorities.

      This section clearly requires all federal agencies having
information concerning incidents involving arson and suspected criminal
use of explosives to report the information to the Secretary. This



                                    11
includes information regarding arson and explosives incidents
investigated by a federal agency, as well as by other entities, such as
state and local agencies. The Secretary gave the ATF the responsibility
to establish the repository and collect such information.

       The ATF established its primary database (AEXIS) for collecting
this information. At the time of our review, the ATF reported that AEXIS
contained over 100,000 detailed records of bombings, thefts of
explosives, recovered explosives and devices, and ATF fire
investigations dating back to 1975.

FBI

      In 1988, Congress passed Public Law 100-690 entitled “The
Uniform Federal Crime Reporting Act of 1988,” which required that
standardized reporting of crime from law enforcement agencies with
law enforcement programs be reported automatically on a monthly
basis, under prescribed specifications, to the FBI. The Uniform Crime
Reports, as authorized under Title 28, United States Code (U.S.C),
Section 534, were to be administered by the FBI. This section states,
in part:

       The Attorney General shall acquire, collect, classify, and preserve
       identification, criminal identification, crime, and other records…
       and … exchange such records and information with, and for the
       official use of, authorized individuals of the Federal government,
       the States, cities, and penal and other institutions.

      The reports submitted under this requirement compiled
nationwide criminal statistics for use in law enforcement
administration, operation, and management and assess the nature and
type of crime in the United States. In addition, under Title 28, Code
of Federal Regulations (C.F.R), Section 85(f), the FBI was designated
to operate a central clearinghouse for police statistics under the
Uniform Crime Reporting Program, and a computerized nationwide
index of law enforcement under the National Crime Information Center
(NCIC).

     In addition, the National Incident Based Reporting System
(NIBRS)6 was formulated under the Uniform Crime Reporting Program.

          The NIBRS is an incident-based reporting system through which data is collected on
       6

each single crime occurrence. The data is designed to be generated as a by-product of local,
state, and federal automated records systems. The NIBRS collects data on each single
incident and arrest within 22 offense categories made up of 46 specific crimes.



                                             12
Law enforcement agencies report crimes within their designated regions
and the data is compiled into the UCR. This data collection
responsibility is handled by the Criminal Justice Information Services
Division (CJIS) within the FBI.

      The legislative mandate for the ATF’s responsibility to collect and
maintain information on arson and explosives incidents is specific and
clear. The legislation affecting the FBI is less specific, and the
authorization for the BDC to collect and report such data is not as clear
and is only implied by the Uniform Crime Reporting Act.

Comparison of ATF and FBI Database Systems

       As noted earlier, the purpose of the ATF’s and FBI’s databases is
to collect, and make available to the law enforcement community,
information related to incidents of bombing or arson. To determine
how the ATF and FBI achieve this purpose, we examined the ATF’s
AEXIS and BATS systems and the FBI’s AIRS system and compared
the accessibility, data collection features, user interfaces, data fields,
types of outputs, and data sharing capabilities of each. In doing so,
we identified overlapping and unique features, and where possible, we
noted system advantages and weaknesses. We also tested system
accuracy of the ATF’s and FBI’s databases, and assessed the timeliness
of data entry and response time to inquiries by system customers. A
summary of the features of each database is found in Appendix IV.

Accessibility

AEXIS. The ATF’s AEXIS system was developed for arson and
explosives specialists to assist in the collection, maintenance,
evaluation, and dissemination of information for determining criminal
activity patterns, trends, and motives. The AEXIS system is an
enhancement of the ATF’s Explosives Incident System, which was
developed in 1974 and implemented in 1975. AEXIS contains
information on over 70,000 arson cases and 40,000 bombings dating
back to the early 1920s.

      The AEXIS system is available primarily to ATF Repository staff.
Some Repository staff members have administrator privileges, which
enable them to change information within the system. In each of the
ATF field divisions, one person is authorized to have limited access to
AEXIS, and that person is designated as the contact person for the
whole field division. A web-based access system is available for
authorized state and local agencies to have read-only rights to parts of



                                   13
the AEXIS system, whereby queries can be performed to obtain
statistical information. Also, state and local law enforcement agencies
may contact the Repository to obtain information, but direct access to
AEXIS is not available to individuals outside of the Repository.

      Comments we received from system users regarding accessibility
indicated they would like to have greater online access and a secure
system to download information via the Internet.

BATS. The ATF’s BATS system is a web-based, Oracle database that
provides ATF and state and local law enforcement agencies with access
to real-time nationwide information on fire investigations, arson,
bombings, and other criminal misuse of explosives. The BATS system
was developed by ATF, with participation by law enforcement agencies
responsible for fire, arson, and post-blast investigations. BATS has
been operational since October 2003, contains about 1,280 records,
and has about 140 users at two sites. Law enforcement agencies can
use BATS in one of two ways: as a supplement to an existing records
management system or as a new records management system.

      BATS is made available to participating agencies through a
software application that uses a secure Internet connection.
Mandatory provisions for connectivity to the BATS application require
that: 1) only government owned or leased computers are used to
establish communication with the BATS software application, 2) all
connections established with the BATS software application are made
through a physical wire connection, and 3) under no conditions can
connections be established through any type of wireless
communication appliance or medium without written approval from
ATF.

      BATS is made available to law enforcement agencies that meet
the following requirements:

     •   The agency must be a duly constituted, empowered, and
         regulated law enforcement agency, and the agency must
         have responsibility for the investigation of incidents involving
         arson and the suspected criminal misuse of explosives.

     •   The agency and the members of that agency that access the
         BATS system must have current National Crime Information
         Center (NCIC) access and user privileges.




                                   14
       •   The agency must have an originating agency identifier (ORI)
           number.

       In addition, agencies requesting access to BATS must:

       •   Submit a letter of interest from the Department Chief on
           departmental letterhead requesting BATS access,

       •   Complete and submit to ATF the required access forms,

       •   Participate in BATS security and operational training, and

       Sign a memorandum of understanding (MOU) acknowledging
participation in the BATS system.7

AIRS. The FBI’s AIRS system is a web-based, Oracle database that
tracks bombing incidents and activities in the United States and was
designed by the BDC to meet the needs of explosives reporting and
data warehousing. AIRS has been in operation since January 1998
and is now fully operational, with the exception of scheduled upgrades.
AIRS is considered by the FBI to be the main method of
communicating intelligence between FBI Special Agent bomb
technicians and state and local accredited bomb squads nationwide.

      AIRS is available nationwide via the secure Law Enforcement
Online (LEO) network,8 which is accessed through a virtual private
network.9 Within LEO, Special Interest Groups (SIG)10 are established
by the FBI for users who meet certain criteria. Users may access the


          Law enforcement agencies interested in acquiring access to BATS have to enter into
       7

an MOU which reads as follows: “This MOU is entered into by the United States Department of
Justice, Bureau of Alcohol, Tobacco, Firearms, and Explosives (ATF), and the_____________,
hereinafter collectively referred to as “the parties.” This MOU establishes and defines a
partnership between the parties that will result in the operation and administration of an
online secure Internet based intelligence and information system. This information system will
be used by the parties for the collection, analysis, and dissemination of incidents involving
arson and the suspected criminal misuse of explosives through ATF’s Arson and Explosives
National Repository Bomb Arson Tracking System (BATS) software application.”

          LEO is a national interactive computer communications system and information
       8

service exclusively for the law enforcement community and can be accessed by an approved
employee of a duly constitutional local, state, or federal law enforcement agency, or an
approved member of an authorized law enforcement special interest group. The system
provides a vehicle for these communities to exchange information, conduct on-line education
programs, and participate in professional special interest and topically focused dialog. The
information contained within LEO is for the sole use of members and may contain confidential
and privileged information.




                                             15
AIRS website by using a valid LEO username and password and be a
member of an appropriate SIG.

        SIG membership requirements for the bomb technician level are:

        •    Users must be graduates of the FBI Hazardous Devices School
             at Redstone Arsenal in Huntsville, Alabama.

        •    Users must be graduates of the United States Naval School
             Explosives Ordinance Disposal (NAVSCOLEOD).

        •    Users must be active bomb technicians that have been
             verified by the BDC.

        SIG membership requirements for investigator access are:

        •    Users must be assigned by an agency to conduct bombing
             and/or arson investigations.

        •    Users must submit a letter to the BDC on agency stationary
             from a superior officer identifying the user as being
             responsible for bombing and/or arson investigations.

        •    Users must be active bomb technicians, but need not be
             graduates of the FBI Hazardous Devices School or
             NAVSCOLEOD. In addition, users must submit on
             departmental letterhead identifying themselves as an
             assigned bomb technician for the department.

       Criteria for members who have investigator access must be
verified annually by the BDC.

        SIG membership requirements for current LEO members are:

        •    Users must fill out forms identifying their name, agency, and
             date of graduation from the Hazardous Device School.


        9
          A virtual private network is a security structure that utilizes a program to provide
secure, encrypted channels between LEO users and the applications and data contained with
the LEO network.
        10
          SIGs are segmented areas with controlled access for specialized law enforcement
groups. SIGs represent a special discipline area within the law enforcement profession and
have their own members.




                                              16
       •   Users must send a letter to the BDC identifying their name,
           agency, date of graduation from NAVSCOLEOD (for bomb
           technician access), or a letter from their department verifying
           they have bombing investigation responsibilities.

      Comments we received from some system users indicated that
they would like to be able to access data without having to go through
a “middle man,” and that it is very cumbersome to get into LEO.

       The ATF’s BATS and FBI’s AIRS overlap significantly. They
perform similar functions and the same types of agencies are eligible
to participate in either system. In our judgment, the ATF’s BATS
database has the potential to be the easiest database to access by
eligible users. AEXIS is very restrictive, and access to AIRS via LEO,
which is less restrictive than AEXIS, can be difficult. However, as of
the time of our review, BATS was in use at only two agencies, and only
two more were expected to be using BATS by the end of 2004.

Data Collection

AEXIS. Data is collected for the ATF’s AEXIS system electronically or
in hardcopy format. Repository staff perform an electronic transfer
into AEXIS by using N-Force,11 a case management system used by
ATF agents. Data transfer is performed via the tools menu located on
the task bar within AEXIS. Prior to acceptance of data, Repository
staff have the option of reviewing the transferred data and
determining whether to include the data in AEXIS.

      State and local agencies provide data via fax, mail, e-mail, and
reports of investigations. In addition, data is collected from such
sources as forensic lab reports from ATF chemists, bomb tech reports,
photograph devices from crime scenes, evidence from the ATF
laboratory in Maryland, and telephone calls from ATF forensic
laboratory agents.

       Comments we received from system users regarding data
collection were largely positive, such as “no room for improvement,”
“no complaints,” and “timely, efficient.” Some responders indicated,
however, that ATF staff should be more readily available by telephone
and that better communication is needed.


        11
           N-Force is a case management system that supports the law enforcement
operations of ATF; information within N-Force is entered once and can be used in multiple
areas throughout the system.



                                             17
BATS. Data is collected for the ATF’s BATS system from investigators
at the federal, state, and local level. There is no requirement to
submit data in a specific format, as BATS accommodates virtually any
type of data. Investigators may enter data from printed reports from
their respective agency’s case management system, or data may be
entered into BATS directly, while being used simultaneously as a case
management system. In addition, investigators can enter data from
notes taken during the investigation of an incident. Passwords and
user identifications are necessary to access BATS. No data is entered
by Repository staff. All data is entered by law enforcement agencies
outside the Repository.

AIRS. Data is collected for the FBI’s AIRS system electronically or in
hardcopy format via mail or fax. Authorized members of the BDC/SIG
may enter bombing incidents and bomb squad activities directly into
the system. Also, authorized LEO members may enter data on their
incident and activities directly into AIRS. Further, electronic data from
other database platforms such as Microsoft Access or Oracle can either
be imported or exported into AIRS by BDC personnel. Future plans
are for an “email to fax service” within AIRS, which will give reporting
agencies the ability to electronically transmit their completed incident
and activity report forms to the BDC.

       All hard copy submissions of data must be reported on either an
incident reporting form (FD-873) or the activity report form (FD-873a).
Incident reports contain information on arson and explosives incidents
that are investigated by the reporting agency and forwarded to the
BDC. They provide significant details about specific occurrences.
Activity reports contain information reported by bomb squads that may
not be related directly to actual arson and explosives incidents but
provide details of investigations of suspicious activities, devices, or
threats. Only Special Agent Bombing Technicians or members of a
bomb squad are given the choice to create activity reports within
AIRS.

     Comments we received from system users were mixed. Some
were satisfied with the job the BDC was doing. Others were somewhat
negative, indicating that the BDC could use more staff, information
was not always current, and statistics were helpful but not timely.

       In our judgment, a system in which data can be entered on-line
directly by the reporting agency, such as the BATS system, has the
advantage of furnishing real-time data. Such a system can also




                                   18
minimize errors that occur when a second party transcribes
information from a source document.

User Interface

AEXIS. Data in the ATF’s AEXIS database can be entered or obtained
through two forms of user interfaces. One interface addresses data
elements that can be entered or obtained only by Repository staff.
Outside agencies must contact Repository staff regarding such data.
The second form addresses data elements that are available to all
agencies that have read-only rights to use the web-based querying
and reporting feature of AEXIS.

      The user interface for Repository staff is patterned after
Windows Explorer: it uses an expandable file structure for data
storage. The file structure allows the user to browse all records that
are part of a particular incident and view the contents of the record.
The elements of this portion of the user interface for the AEXIS system
provides numerous ways that Repository staff can interact with the
system for productive use. Examples of elements follow:

     •   Incident selection browser that lists all incidents within a
         given period, with querying options

     •   Data validation within working sections

     •   Duplicate record reconciliation screens

     •   Review options prior to accepting/declining data

     •   Theft/loss reporting

     •   Tracing of explosives

     •   Automated data loading via web interface from federal
         reporting agencies

     •   Imaging system

     The web-based querying and reporting interface offers users the
     capability to query AEXIS and view incident-related photographs,
     and provides data administration functions for reporting. The
     elements of the imaging and data administration are as follows:




                                   19
       •    Four different querying input methods: text box, list box,
            drop down list box, and multiple select box

       •    Four querying tools that pull data and provide views of data
            from five data tables

       •    Querying tools that pull data from seven tables within the
            National Fire Incident Reporting System (NFIRS)12

       •    Query reporting systems that incorporate data from different
            databases: AEXIS, NFIRS, and the Uniform Crime Report13

BATS. The ATF’s BATS system uses a Java based web browser
designed to allow the user to navigate the system easily. Examples of
user interface elements are:

       •    Incident maintenance to create and update records

       •    Incident search by incident, subject, or device

       •    Export agency information to other users

       •    Restricted/Unrestricted option for sharing data

       •    Geographic information system

       •    Edit features

AIRS. The FBI’s AIRS user interface is built in a web format, whereby
the features of AIRS can be accessed through easy to understand web-
style controls. The elements of the user interface for the AIRS system
provide numerous ways that the user can interact with the system to
use it productively. Examples of interface elements are:

       •    Navigational buttons for moving from one section to another
            in a particular report


       12
           The National Fire Incident Reporting System, maintained by the United States Fire
Administration, represents the world’s largest national, annual database of fire incident
information, whereby local and state agencies submit incident and casualty reports as fires
occur in their respective areas.
        13
           The Uniform Crime Report is a system of collecting and analyzing crime statistics
gathered on selected crimes by participating law enforcement agencies throughout the United
States.



                                             20
     •   Validation indicators per work section prior to completion of
         the entry of a report

     •   Search modes to perform simple and advanced searches

     •   Required field denotations for an agency’s name, city, state,
         zip code, and bomb squad identification number

     •   Duplicate entry detection

     •   Computer generated report numbers

      Each of the database systems has unique user interface
features. Based on our review of the systems and feedback from the
users, we did not conclude that the user interface features of any one
system to be better than the others.

Data Fields

      The most significant instances of duplication of effort were
disclosed by our review of the data fields for each of the database
systems. We found that the ATF’s AEXIS and BATS systems, and the
FBI’s AIRS system collected 11 principal types of information:

     •   Date of incident
     •   Time of incident
     •   Type of incident
     •   Address of incident
     •   Target type
     •   Motive
     •   Method of delivery
     •   Incident summary
     •   Incident involvement
     •   Evidence components
     •   Reporting agency name, address, telephone number

     Charts outlining each of the data fields for the ATF’s AEXIS and
BATS database systems, and for the FBI’s AIRS database system are
found in Appendix V.

      In our judgment, a single, consolidated database that includes
each of the data fields currently provided by AEXIS, BATS, and AIRS
would effectively capture all necessary information concerning
incidents of bombings or arson. In addition, we noted that AEXIS also



                                     21
includes an explosives tracing feature and a theft of explosives
feature, as described earlier in this report, which can provide useful
information for linking thefts of explosive materials with criminal
misuse of the explosives. Such data should also be captured by the
consolidated database system.

Types of Outputs

AEXIS. The ATF’s AEXIS system has the capability of generating
automated statistical summary reports from a given data range,
standard reports per record number, tracing reports, and canned
reports based on data extractions from AEXIS, NFIRS, and the UCR.

BATS. The ATF’s BATS system provides output via the following
reports:

      •   Incident Reports that capture all data entered on an incident;

      •   Audit reports that allow agency managers to see what the
          users at a particular agency have entered at any given time;
          and

      •   Management reports that provide a manager of an agency
          with a variety of measures by which an assessment can be
          made of an agency’s performance.

     All BATS reports include both Portable Document Format (PDF)
and HyperText Markup Language (HTML) formats and can be
generated from the main menu within the BATS system.

AIRS. The FBI’s AIRS system is capable of generating multiple output
formats in PDF, HTML, or Excel. Reports can be generated using
various scenarios, as well as simple or customized reports upon
request.

     Our review of the systems and feedback from the users did not
show a discernable difference among the outputs of the three systems.

Data Sharing Capabilities

AEXIS. Data sharing capability within the ATF’s AEXIS system is
limited to authorized members of the Repository staff and the
designated contact person at each ATF field division office. Requests
for information from state and local agencies can be received by fax,



                                   22
telephone, and emails. Repository staff respond to such requests to
law enforcement agencies either by mail or telephone. In addition,
approved law enforcement agencies may query the AEXIS system in
order to obtain information from AEXIS, NFIRS, and the UCR,
individually or collectively.

BATS. The ATF’s BATS system contains a search feature that allows
law enforcement agencies that have access to BATS to share real time
data nationwide. Agencies can export their own agency’s data to
other agencies. In addition, if an agency is using BATS as an inter-
agency case management system, information can be designated as
restricted or unrestricted within BATS.

AIRS. Data can be shared from the FBI’s AIRS system with authorized
SIG members. Requests for information are received by mail, fax, and
e-mail from non-SIG law enforcement agencies. Such requests are
reviewed by BDC staff, which determines what information is available
at BDC. The BDC staff then forward information to the requesting
agency.

      In our judgment, the accessibility of BATS users to one another’s
data is clearly an advantage in investigating incidents of bombing and
arson. We believe that to be effective, a database should have this
data sharing capability.

Accuracy

      We found significant differences in the accuracy of the ATF and
FBI databases when we compared system output to information
obtained from source documents.

AEXIS. We tested the accuracy of the: 1) intelligence information in
the ATF’s AEXIS database, which included the theft and loss feature
within AEXIS; and 2) tracing feature within AEXIS. For both of these
tests, we compared a sample of database output to source documents.
We drew our sample from a computer-generated list of documents for
October 2001 - October 2003 furnished by the ATF.

     We identified from the ATF report a universe of 1,361 input
documents for AEXIS for the review period. We judgmentally selected
a sample of 10 percent of the documents for verification, or a total of




                                  23
136 documents. We were able to locate 64 of the documents,14 which
contained a total of 1,562 data entry fields. We found errors in 10
data entry fields, or 0.6 percent. The following summarizes the
incidence of errors in AEXIS, by category:


                                                             Number
                               AEXIS                         of Errors
                   Incident Time                                 5
                   Incident Data                                 1
                   Incident Address                              1
                   Agency Address                                2
                   Motive                                        1
                   Total Number of Errors                       10



      The error rate we observed for the AEXIS database was very low
and ATF officials were able to correct each of the above errors during
the time of our review.

      In addition, we examined the Explosives Tracing feature of
AEXIS. We identified from an ATF computer-generated report a
universe of 261 records within our review period. We judgmentally
selected a sample of 10 percent, or 26 total records, and found
16 errors.15

       An ATF official stated that the ATF checks about 10 percent of
the data entries for accuracy. The ATF officials stated that some of the
errors we found resulted because of the limited selection of options
available within the AEXIS drop-down menus. This system weakness
limits the options that staff can choose to enter data from source
documents. Thus, the options do not always adequately describe the
details included on the source documents.

BATS. The ATF’s BATS system began operating in calendar year 2003.
The Maine State Fire Marshals was the first law enforcement agency to
gain access to BATS information sharing. During our review, the
Glendale, Arizona Fire and Police Department also deployed BATS.



       14
           We were able to locate only 64 documents because ATF staff had destroyed the
remaining 72 documents. According to ATF staff, they destroy documents at the end of each
calendar year because of storage problems.
       15
          The Explosive Tracing feature of AEXIS does not generate a report; therefore we
were unable to determine the number of applicable fields to calculate an error rate.



                                            24
       We were able to test the accuracy of information in the BATS
database by comparing a sample of system output to case files at the
Glendale location, where we drew our sample from a computer-
generated management report furnished by the Glendale Police
Department for the period January 2001- February 2004. Staff of the
Maine State Fire Marshals Office did not prepare or maintain source
documents for entering data into BATS regarding bombing and arson
incidents. Instead, field staff entered all information directly into
laptop computers used on-site. After review by supervisors, the Maine
data was then uploaded directly to the BATS server. Therefore, we
were unable to verify the accuracy of system output at the Maine
location by comparing it to source data.

      At Glendale, we found that entries in 3 of the 244 data fields we
tested, or 1.2 percent, contained errors because data was entered into
the system incorrectly. Errors occurred in transcribing the zip code,
the age of the subject, and the estimated damage caused by fire.

       In addition, we noted at Glendale that not all data entered into
the system was related to bombing and arson incidents. Contrary to
the provisions of the MOU with the ATF, 5 of the 18 incidents were
unrelated to bombing and arson, such as fires caused by
malfunctioning household appliances. The Glendale’s MOU with ATF
states, “This information system will be used by the parties for the
collection, analysis, and dissemination of incidents involving arson and
the suspected criminal misuse of explosives through ATF’s Arson and
Explosives National Repository Bomb Arson Tracking System (BATS)
software application.”

       Glendale officials told us their procedures had been discussed
and cleared with ATF staff. Further, one Glendale official believed that
all incidents should be included in BATS because a case initially
identified as an accident could later become a case of suspected
bombing or arson. Additionally, ATF staff had agreed that an incident
may become an arson or explosives incident with criminal intent, and
that the use of BATS should be more inclusive, rather than exclusive.
In our view, however, populating the BATS system with data that is
clearly unrelated to bombing and arson incidents is contrary to the
intent of BATS and may result in time wasted by investigators who
needlessly access and review this data.

AIRS. Authorized federal, state, and local law enforcement agencies
that have access to LEO entered bombing incidents and bomb squad
Activity Reports directly into LEO. This data is then used to populate



                                   25
the BDC’s AIRS database. Incident and Activity Reports submitted by
federal, state, and local law enforcement agencies to the FBI’s BDC are
put into the system by BDC staff. Such reports are received by the
BDC electronically, by mail, and by facsimile.

      The FBI has a contract with LSU to enter data in LEO to assist
the BDC to reduce its data backlog. According to LSU officials,
contract staff have not received any formal policies or procedures for
receiving data. LSU officials stated that whenever they need
documents to enter, they simply call BDC officials to request that
additional documents be sent to them. Also, there are no performance
standards for timely entry. Moreover, we found that LSU had data
entry instructions that had not been updated to reflect system
upgrades.

       We reviewed a judgmental sample of 351 Incident Reports and
Activity Reports from a universe of about 10,000 reports. Our sample
consisted of 58 Incident Reports entered by BDC staff, 213 Incident
reports entered by LSU staff, and 80 Activity Reports entered by LSU
staff.16

      The 351 FBI reports contained a total of 7,558 data fields. Of
these data fields, 730 (9.7 percent) contained errors. A summary of
the incidence of errors follows:

     Incident Reports

     Incident Reports contain information on arson and explosives
     incidents that are investigated by the reporting agency and
     forwarded to the BDC or entered directly into AIRS. They
     provide significant details about specific occurrences.

     Reporting Agency Data: (397 errors) These errors are
     significant because a law enforcement agency seeking additional
     information relating to an investigation might receive incomplete
     or inaccurate information and might be unable to easily contact
     the reporting agency.




     16
          Only LSU staff entered data into AIRS from Activity Reports.



                                            26
                                           Number
                Reporting Agency Data      of Errors
             Missing Data                     31
             Inaccurate Data
               Agency name                   11
               Agency city                   24
               Agency street                 50
               Agency state                   5
               Agency telephone number       132
               Agency fax number             117
               Bomb Squad ID                 16
               Responding agency
             number                           5
               Investigating agency
             number                           2
               Agency zip code                4
             Total Number of Errors          397



Incident Type: (2 errors) This data field describes the type of
incident reported, such as “recovered explosives,” “bombing,”
and “hoax.” We found two instances in which the type of
incident was listed incorrectly. Although the error rate for this
category was low, it is significant because an investigating
agency seeking assistance on all incidents of a particular type
would be unable to obtain complete information. In addition,
statistical reports on the categories of incidents may be over or
understated.


                                         Number of
                  Incident Data            Errors
          Bombing Data                       1
          Recovery of IED                    1
          Total Number of Errors             2



Incident Details: (61 errors) As stated above, the errors in this
category are significant because a law enforcement agency
seeking data relating to an incident might not receive complete
and accurate information to assist with its investigation.




                             27
                                      Number
             Incident Details         of Errors
          Missing Data                   41
          Inaccurate Data
            Incident start
          date/time                       5
            Incident end
          date/time                       2
            Incident street
          address                         4
            Incident county               2
            Incident zip code             1
            Target                        1
            Apparent
          Involvement                     2
            Narrative                     2
            Total Damage                  1
          Total Number of
          Errors                         61



Device Data: (52 errors) This data field describes the type of
device used in the incident, such as detonators, pipe bombs, and
hoax device. The most significant number of errors we found in
this category pertained to missing data. In 45 instances, we
noted that information on the type of device used was included
on the Incident Report but not entered in the system. In our
view, this information is critical to investigations and its absence
could adversely affect the progress of investigations.


                                         Number of
                   Device Data             Errors
          Missing Data                       45
          Inaccurate Data
            Category                          4
            Device Type                       1
            Subtype                           1
            External Container                1
          Total Number of Errors              52



Activity Reports

Activity Reports contain information reported by bomb squads
that may not be related directly to arson and explosives
incidents but that provides details of investigations of suspicious



                                28
     activities, devices, or threats. Because of their investigative
     value, errors in data entry could have adverse effects similar to
     those described for Incident Reports above. The following tables
     cite the incidence of errors we noted in the sampled Activity
     Reports we reviewed:

     Reporting Agency Data: (133 errors)


                                            Number of
                 Reporting Agency Data        Errors
              Agency name                        3
              Agency street                     15
              Agency city                       10
              Agency state                       5
              Agency zip                         4
              Agency telephone number           44
              Agency fax number                 52
              Total Number of Errors           133



     Activity Type: (5 errors) This data field describes the type of
     activity performed by reporting agency staff, such as attending
     training, examining equipment, and disposing of explosives.


                                             Number of
                       Activity Type           Errors
              Protective Detail                  5



     Activity Data: (80 errors)


                                               Number
                          Activity Data        of Errors
              Activity start date/time            40
              Activity end date/time              40
              Total Number of Errors              80



       The BDC personnel stated that errors occurred because there is
a feature within the telephone and fax number fields that automatically
completes information based on the law enforcement bomb squad’s
identification number. They said those errors could have occurred for
the following reasons: 1) agents included personal contact information


                                   29
on the source documents, and 2) information for the specific
identification numbers changed but was not updated in the system.
The BDC did not have an explanation for the remaining errors.

     The LSU personnel believed that missing data occurred when the
BDC upgraded the system and data was not transferred to the new
system. Additionally, errors found in the incident time category were
caused because the LSU staff did not enter data included on source
documents.

      Data entry errors occurred even though BDC technical staff
stated they edit and perform quality assurance measures on all data
submitted, and that every report received via the mail or data fax was
reviewed and edited prior to data entry.17

       Our tests showed that the FBI’s error rates were significantly
higher than the ATF’s. We attribute this condition to system
limitations and a lack of an effective second-party review system.
However, the FBI is moving toward increased data entry on-line by
reporting agencies. In our judgment, direct entry of data on-line
should improve database accuracy.

Timeliness of Data Entry and Responsiveness to Customers

      Based on our examination of available data and interviews with
ATF and FBI customers, we did not find any significant problems
concerning timeliness of responses. However, we found that the FBI
had a significant backlog of Incident Reports and Activity reports that
had not been entered into its AIRS database.

AEXIS. We reviewed a judgmental sample of ATF AEXIS report data to
determine the length of time from receipt of data to the date of entry
into the ATF database. The ATF staff stated that information is
entered as soon as it is received. However, this could not be verified
because the ATF did not date stamp documents. Further, the system
did not have automated indicators to show when the data is entered
into AEXIS.

     We relied upon our interviews with agency officials who
contacted the ATF to determine whether ATF responses were timely.

           Quality assurance examples include: reviewing reports for spelling, variances in
       17

types of devices used with description included in the narratives of reports, and determining
whether the correct forms were used for reporting data to the BDC.




                                              30
None of the agency officials we interviewed complained about the
ATF’s timeliness. Specifically, the agency officials who contacted ATF
stated they received the information requested as follows:


                How long did it take you to
                   receive the requested       Agency
                       information?           Response
               Immediately                       7
               Within 1 day                      2
               Within a week                     13
               A week or more                    1



      Based on these responses, it appeared that the ATF is
responding to customer requests quickly. However, the ATF had not
established controls, such as recording the date requests are received
and responses are sent out, to monitor whether requests received
were promptly answered.

BATS. Because users of ATF’s BATS system enter data directly on-line
and have access to one another’s data, there is no delay in either data
entry or retrieval.

AIRS. We found that the FBI’s BDC had a large backlog of source
documents containing data that had not been entered into the AIRS.
In August 2003, data from at least 5,745 Activity Reports and 770
Incident Reports, a total of 6,515 documents, was more than 4 years
old and still had not been entered into the system. We noted that
reports sent to LSU were kept at the BDC until they had a full box of
forms and that the BDC kept no record of the forms sent to LSU.
According to LSU staff, however, as of July 2004 the backlog had been
eliminated. On August 19, 2004, FBI officials indicated the contract
with LSU was terminated.

      We were unable to determine how quickly the FBI responded to
requests for information because requests were not date stamped on
receipt. However, the requesting agency officials we interviewed told
us the FBI responded timely to their requests.




                                  31
                 How long did it take you to
                    receive the requested       Agency
                        information?           Response
                Immediately                       3
                Within 1 day                      2
                A week or less                    4
                A week or more                    1



       Neither ATF nor FBI customers complained about the timeliness of
the current systems. If the ATF and FBI consolidate their databases,
and system users do data entry and retrieval from the database system
directly on-line, we believe that timeliness should continue to be
satisfactory.

ATF, FBI, and Departmental Efforts to Define Responsibility for
Data Collection and Management

      On November 15, 2001, the ATF issued Notice of Proposed
Rulemaking No. 933, which proposed to amend 27 CFR Part 55, a
federal regulation governing the activities of the ATF. The ATF proposed
to require all agencies having information concerning incidents involving
arson and the suspected criminal misuse of explosives, from whatever
source received, to the ATF. The term “agency” was defined in the
proposed regulations as each of the executive agencies and military
departments, and the United States Postal Service. The proposal also
specified the minimum types of data to be furnished to the ATF, which
included “general information about the …incident.”

      The FBI disagreed with the proposed rules on several points. In
its February 12, 2002, response, the FBI stated that: 1) it also had
responsibilities for compiling data, and 2) that it retained the authority
and responsibility for obtaining data concerning bombing incidents and
other crimes involving explosives, including collection from other federal
agencies. Additionally, the FBI stated that since its data compilation
responsibilities may encompass the same data addressed by the ATF’s
proposed rule, the ATF should clarify in the regulation that the ATF did
not supplant concurrent data compilation by the FBI. The FBI was also
concerned about the proposed rules’ definition of “from whatever
source.” Specifically, the FBI recommended three changes:

      1. Adding “Nothing in this regulation shall be construed as
         modifying or otherwise affecting in any way the authority of




                                   32
         any other federal agency, including the FBI’s National Bomb
         Data Center.”

      2. Changing “having information on incidents” to “having
         information on incidents derived from operations for which the
         agency exercises primary responsibility,” and changing “must
         report the information” to “must report appropriate
         information.”

      3. Changing “General information about” to “Appropriate general
         information about.”

      In our view, the FBI did not want to relinquish its responsibilities
for collecting data and countered the ATF’s proposal by amending the
wording of the proposed rule so that it, in effect, retained those
responsibilities.

       At the time of our review, the proposed rules were still pending.
In July 2003, the ATF drafted a proposal to merge the common
functions of the Repository and the BDC. Specifically, the ATF proposed
to: 1) eliminate the cost of the ongoing maintenance and support of
two reporting systems, 2) provide more efficient reporting procedures
for state and local law enforcement agencies, and 3) maximize customer
and stakeholder benefits by making full use of the Repository’s
capabilities. To achieve these objectives, the ATF recommended that
the information and publication functions of the BDC be merged with the
Repository as a single entity within the Department, and managed by
the ATF.

       Subsequent to the ATF’s proposal, on March 4, 2004, the Attorney
General created the Explosives Review Group (ERG) to identify options
and make recommendations to ensure effective coordination of the
Department’s efforts concerning explosives. The Attorney General
directed the ERG to be chaired by a senior level representative from
ATF, and to include senior level representatives from the Office of the
Deputy Attorney General (ODAG), the FBI, the Criminal Division, and
the Office of Legal Policy. Among the topics to be addressed by the ERG
was the coordination and possible merging of ATF and FBI databases
relating to explosives investigations. The ERG was to submit options
and recommendations to the ODAG by May 4, 2004, and the ODAG was
to present options and recommendations to the Attorney General by
June 4, 2004. As of July 14, 2004, the ODAG had not submitted its
recommendations to the AG, but indicated to us that the ATF and FBI
agreed in principle that the databases should be consolidated. On



                                    33
August 11, 2004, the Attorney General directed: 1) the ATF and the FBI
to consolidate all of the Department’s arson and explosives incidents
databases, including, but not limited to, the ATF’s BATS, and the FBI’s
AIRS, into a single database; and 2) that all consolidated arson and
explosives incident databases be maintained by the ATF (See Appendix
VI for details of the Attorney General’s August 11, 2004 directive).

Conclusion

       Both the ATF and the FBI compile and disseminate data related to
arson and the illegal use of explosives. This has resulted in duplication
of effort by the ATF and the FBI and duplicate reporting of incidents by
non-federal agencies. It also has resulted in confusion and a lack of
consistency in the reporting process. This condition stems from
statutory and regulatory overlaps concerning the responsibility to
compile data, and continues to exist because of a lack of concurrence
between the ATF and the FBI on how to ensure that duplication is
avoided and uniformity is achieved.

      The FBI’s error rate for entering data into AIRS far exceeded the
ATF’s error rate for entering data into AEXIS. However, as the FBI
migrates from data entry by BDC and LSU staff to data entry by
reporting agencies, the error rate should decrease. The accuracy of
the ATF’s BATS system could not be fully assessed at the time of the
review because it was still in the pilot stage and implemented in only
two locations. The error rate for the BATS data we were able to
review was very low. However, we found that much of the data
entered was unrelated to bombing and arson incidents, and therefore
contrary to the purpose of BATS.

       We were unable to fully assess the timeliness of the ATF and FBI
systems because neither was recording the dates that information was
received from reporting agencies. Most agencies, however, responded
favorably regarding the ATF’s and FBI’s timeliness on their requests for
information. The most significant condition we observed regarding
timeliness was the FBI’s large backlog of Incident Reports and Activity
Reports that had not been entered into AIRS, and the lack of controls
for tracking the reports that were sent to LSU. The BDC simply sent
boxes of Incident and Activity Reports periodically to LSU for data entry.
This condition, according to FBI staff, was improving. Again, migration
to direct entry by reporting agencies would alleviate this condition and
prevent its recurrence.




                                   34
      To provide the law enforcement community with the most efficient
and effective means of collecting arson and explosives intelligence, we
believe that one reporting system should be established, which would
eliminate duplication of effort and the confusion as to which system to
use and rely on for such information. Ensuring accessibility to the
system by appropriate users would enhance the ability of federal, state,
and local law enforcement agencies to share valuable intelligence
information about arson and explosives incidents and devices.

      Based on our review of the databases currently managed by the
ATF’s Repository and the FBI’s BDC, we compiled a list of suggested
features, which we list below, that a consolidated system should have
for reporting and sharing arson and explosives information within the
law enforcement community. No one system we examined had all of
these features.

     Accessibility

        •   Internet accessibility
        •   Unrestricted access to eligible users

     Data Collection

        •   Incident Information
        •   Reporting agency data
        •   Suspects/subject information
        •   Investigator information
        •   Evidence data
        •   Device details
        •   Uniform data collection
        •   Electronic submission
        •   Data security
        •   Imaging
        •   Theft/Loss reporting
        •   Tracing of explosives
        •   Procedures for rendering devices safe

     User Interface

        •   User friendly controls
        •   Validation indicators
        •   Required field denotations
        •   Duplicate entry detection
        •   Edit/update capability



                                   35
           •   User’s reference tool
           •   Computer generated record numbers
           •   Search options
           •   Sorting options
           •   Edit/Update capability
           •   Geographic mapping capability
           •   User’s reference tool

         Data Field Categories

           •   Incident information
           •   Reporting agency data
           •   Suspects/subject information18
           •   Investigator information
           •   Evidence data
           •   Device details

         Outputs

           •   Summary reports
           •   Ad hoc reports
           •   Audit reports for quality control review

         Sharing capabilities

           •   Disclosure capability determined by contributor
           •   Import/export capability

       We also found that both the ATF and FBI have encountered
problems in maintaining their respective databases. The management
of any consolidated system plays an important role in the effectiveness
of data collection and sharing. We believe that the management of such
a consolidated system should include the establishment of policies and
procedures for collecting and disseminating data, responding timely to
requests, ensuring the information is current and accurate, setting
minimum access requirements for potential end users, and advertising
the system to the law enforcement community. In our judgment, a
single database having the features listed above with established
policies and procedures would result in the most efficient and effective
means of collecting and disseminating arson and explosives information.



    18
        On August 19, 2004, FBI officials indicated they did not want to include subject and
suspect data, or data related to juveniles due to Privacy Act and other concerns.



                                              36
Recommendations

We recommend the Department:

1. Consolidate the Repository and BDC databases under ATF
   management in accordance with the Attorney General’s August 11,
   2004, directive, in order to eliminate duplication of effort, ensure
   consistency in reporting, and facilitate sharing of intelligence among
   eligible law enforcement agencies.

Pending the implementation of Recommendation 1, we recommend the
ATF:

2. Ensure that BATS users adhere to the MOU and require that data
   used to populate the BATS database involve only arson and the
   suspected misuse of explosives.

Pending the implementation of Recommendation 1, we recommend the
FBI:

3. Develop and implement policies, procedures, and performance
   standards to ensure timely and accurate data entry into AIRS.

4. Migrate to direct data entry by reporting agencies.




                                   37
               STATEMENT ON COMPLIANCE WITH
                   LAWS AND REGULATIONS


      We audited the collection of information involving arson and
criminal misuse of explosives by the Bureau of Alcohol, Tobacco,
Firearm, and Explosives (ATF) and the Federal Bureau of
Investigations (FBI). The audit period covered January 2001- July
2004, and included a review of selected activities and documents.

       In connection with the audit and as required by the standards,
we reviewed: 1) procedures used to collect and disseminate arson and
explosives data, 2) access to databases, and 3) whether duplication of
effort exists between databases.

       Our audit included examining, on a test basis, evidence about
policies and procedures, laws, regulations, and Office of Management
and Budget (OMB) Circulars. The specific laws and regulations for
which we conducted tests are contained in the relevant portions of:

     •     Public Law 104-208 (110 Stat. 3009), the Omnibus
           Consolidated Appropriations Act of 1997
     •     Title 18 U.S.C. 846(b)
     •     OMB Circular A-123

      Except for instances of non-compliance identified in the Findings
and Recommendations section of this report, the ATF and the FBI were
in compliance with the laws and regulations referred to above. With
respect to the laws and regulations not tested, nothing came to our
attention that caused us to believe that the ATF and FBI were not in
compliance with the referenced laws and regulations cited above.




                                  38
            STATEMENT ON MANAGEMENT CONTROLS

      In planning and performing our audit of the ATF’s and the FBI’s
Arson and Explosives Intelligence Databases, we considered the ATF’s
and the FBI’s management controls for the purpose of determining our
auditing procedures. This evaluation was not made for the purpose of
providing assurance on ATF’s and the FBI’s management controls as a
whole.

      As discussed in the Finding and Recommendations section of this
report, we found weaknesses in the ATF’s and the FBI’s systems for
ensuring data accuracy, and weaknesses in the FBI’s system for
ensuring timely data entry.

       Because we are not expressing an opinion of the ATF’s and the
FBI’s management controls as a whole, this statement is intended
solely for the information and use of the ATF and the FBI in managing
their arson and intelligence databases. This restriction is not intended
to limit the distribution of this report, which is a matter of public
record.




                                   39
                                                      APPENDIX I

        AUDIT OBJECTIVES, SCOPE, AND METHODOLOGY

Objectives

       The objective of the audit was to examine overlap between the
Bureau of Alcohol, Tobacco, Firearms, and Explosives’ (ATF) and the
Federal Bureau of Investigation’s (FBI) databases that compile
information on arson and bombing incidents and evaluate whether the
Department of Justice (Department) has efficiently and effectively
collected, and made available to the federal, state, and local law
enforcement community, information involving arson and the criminal
misuse of explosives.

Scope and Methodology

      The audit was performed in accordance with Government
Auditing Standards issued by the Comptroller General of the United
States, and included tests and procedures necessary to accomplish the
objectives.

      Generally, the audit focused on the ATF’s and the FBI’s policies
and procedures used to collect and disseminate arson and explosives
data. We also evaluated the methodologies used to populate each
database system with intelligence information. We tested the
accuracy of a sample of the information contained in each system by
comparing system data with source documentation. We determined
whether maintenance of both the ATF’s and the FBI’s databases
resulted in duplication of effort. We evaluated how the law
enforcement community is informed on the systems.

     The audit period covered January 2001 through July 2004 and
we performed fieldwork at the following locations:


        ATF Headquarters              Washington, D.C.
        FBI Bomb Data Center          Quantico, VA
        Louisiana State University    Baton Rouge, LA
        Glendale, AZ Fire and         Glendale, AZ
        Police Department
        Maine State Fire Marshals     Gardiner, ME
        Office




                                     40
      To obtain background information related to how the
Department can most efficiently and effectively collect, and make
available information involving arson and criminal misuse of explosives
for ATF; BDC; LSU; Glendale, Arizona, Fire and Police Department;
and the Maine State Fire Marshals Office, we reviewed:

     •    A list of key personnel and contact information of individuals
          responsible for system administration and maintenance.

     •    Criteria applicable to the environment and operations (laws,
          regulations, policies, and procedures).

     •    The operations manual or plan.

     •    A copy of the budgets.

     •    Prior reports of audits and inspections.19

     •    Policies and procedures used to collect and disseminate data
          included in the databases.

     •    The contract between the FBI and LSU.

     •    The memorandum of understanding between ATF and the
          Glendale, Arizona, Fire and Police Department and the Maine
          State Marshals Office.

       To evaluate what data was collected and reported, and how
collected data was imported into the databases, we:

     •    Interviewed officials and reviewed written policies and
          procedures to determine procedures for collecting data
          submitted to the agencies, and the protocol for access to the
          databases.

     •    Assessed whether data was received via hard copy or
          electronically.

     •    Interviewed officials and reviewed written policies and
          procedures to obtain the criteria used to determine whether
          information received was entered into the databases.



     19
          We found no prior audit or inspection reports that related to our audit objectives.



                                             41
     •   Interviewed officials and reviewed written policies and
         procedures to determine whether data was verified for
         accuracy prior to entry into the databases.

     •   Interviewed officials and reviewed written policies and
         procedures to determine whether the databases detected
         duplicate entries.

     •   Reviewed data documents for a sample of report data to
         determine the length of time from receipt of data from source
         documents to the date of entry into the databases.

     •   Tested a sample of documents used to populate the
         databases with intelligence information.

      To assess who had access to the databases and how access was
obtained, we:

     •   Interviewed officials and reviewed written policies and
         procedures to determine how access to the databases was
         allowed.

     •   Interviewed officials and reviewed policies and procedures for
         informing and training the law enforcement community on
         policies and procedures concerning the availability and use of
         the database.

     •   Interviewed officials and reviewed written policies and
         procedures to determine how outside requests for information
         from the database were processed.

      To assess whether duplication of effort existed by maintaining
multiple databases, we:

     •   Reviewed the format and type of data provided by the
         databases to investigators, law enforcement personnel, and
         any other systems users.

     •   Evaluated if data outputs could be customized for individual
         queries.

    To assess the usefulness of the ATF’s Repository and the FBI’s
Bomb Data Center databases in conducting investigations, we:




                                  42
•   Contacted representatives of the United States Fire
    Administration; and ATF field offices, FBI field offices, and
    state and local agencies that serve 11 of the largest cities in
    the United States.




                              43
                                              APPENDIX II

         SURVEY QUESTIONNAIRE AND RESULTS

1. Does your agency report arson or explosives incidents, or
   both, to a federal agency?

  YES      NO

  46       2

2. To which federal agencies do you normally report
   incidents?

  ATF    FBI    OTHER (BOTH) NONE

  13     17          16          2

3. How do you decide to which agency you report arson or
   explosives incidents?

  Responses varied




                            44
            Separate Questions and Responses About the ATF


   1. Has your agency ever requested information about arson
      and explosive incidents from the ATF for investigative
      purposes?

       YES         NO      N/A

        21         24      3

   2. How often have you contacted the FBI’s Bomb Data
      Center in the past 12 months?

       Responses varied

   3. How do you typically request the information?20

       MAIL       FAX      PHONE       E-MAIL      OTHER

            0       4          14         6            6

   4. How was the information typically provided to you?

       MAIL       FAX      PHONE       E-MAIL      OTHER

            7       4          11          11           5

   5. How long did it take you to receive the requested
      information?

       Responses varied

   6. What was the nature of the information requested?

       Responses varied




       20
         Responses to question numbers 3 and 4 exceed the 20 “yes” responses to question
1 because some agencies indicated they reported to both the ATF and the FBI.



                                           45
   7. How helpful was the information with your
      investigation?21

       ESSENTIAL VERY HELPFUL SOMEWHAT HELPFUL NOT HELPFUL

                2                  14                        3                       0

   8. What suggestions do you have about improving the way
      you provide information to or get information from the
      ATF?

       Responses varied




       21
          The number of responses to this question is less than 20 because the question was
not applicable for one agency.



                                            46
       Separate Questions and Responses About the FBI


   1. Has your agency ever requested information about arson
      and explosive incidents from the FBI for investigative
      purposes?

       YES         NO     N/A

        16         26      6

   2. How often have you contacted the FBI’s Bomb Data
      Center in the past 12 months?

       Responses varied

   3. How do you typically request the information?22

       MAIL        FAX     PHONE       E-MAIL       OTHER

         2           2          9           7          4

   4. How was the information typically provided to you?

       MAIL        FAX     PHONE       E-MAIL       OTHER

          4         2          6           9            2

   5. How long did it take you to receive the requested
      information?

       Responses varied

   6. What was the nature of the information requested?

       Responses varied




       22
          Responses to question numbers 3 and 4 exceed the 16 “yes” responses to question
1 because some agencies indicated they reported to both the ATF and the FBI.




                                           47
   7. How helpful was the information with your
      investigation?23

       ESSENTIAL VERY HELPFUL SOMEWHAT HELPFUL NOT HELPFUL

             1                   9                          2                     0

   8. What suggestions do you have about improving the way
      you provide information to or get information from the
      FBI?

       Responses varied




        23
           The number of responses to this question is less than 16 because some agencies did
not indicate how helpful the information was with their investigation, or the question was not
applicable.



                                             48
                                                      APPENDIX III

             AGENCIES INTERVIEWED BY TELEPHONE

State and Local Agencies

     1.   Arizona Department of Public Safety
     2.   Atlanta Fire Department
     3.   Atlanta Police Department
     4.   Bexar County, Texas Sheriff’s Department
     5.   California Department of Forestry & Fire Detection
     6.   Chicago Fire Department
     7.   Chicago Police Department
     8.   Cook County, Illinois Sheriff’s Office
     9.   Dallas County Sheriff’s Department
    10.   Dallas Fire Department
    11.   Dallas Police Department
    12.   Detroit Fire Department
    13.   Detroit Police Department
    14.   Fulton County, Georgia Sheriff’s Department
    15.   Georgia Bureau of Investigations
    16.   Houston Fire Department
    17.   Houston Police Department
    18.   Illinois State Police
    19.   Los Angeles County Sheriff’s Department
    20.   Los Angeles Fire Department
    21.   Los Angeles Police Department
    22.   Maricopa County, Arizona Sheriff’s Office
    23.   Michigan Department of State Police
    24.   New York Police Department (Arson Squad)
    25.   New York Police Department (Bomb Squad)
    26.   Philadelphia Police Department
    27.   Phoenix Police Department
    28.   San Antonio Fire Department
    29.   San Antonio Police Department
    30.   San Diego County Sheriff’s Department
    31.   San Diego Fire Department
    32.   San Diego Police Department
    33.   Wayne County, Michigan Sheriff’s Department

ATF Field Divisions

    34. Atlanta
    35. Chicago



                                   49
    36.   Dallas
    37.   Houston
    38.   Los Angeles
    39.   Philadelphia

FBI Field Divisions

    40.   Atlanta
    41.   Chicago
    42.   Dallas
    43.   Los Angeles
    44.   New York
    45.   Philadelphia
    46.   Phoenix
    47.   San Antonio

Department of Homeland Security

    48. United States Fire Administration




                                 50
                                                                                APPENDIX IV


                 OUTLINE OF THE FEATURES OF THE NATIONAL
                     REPOSITORY AND BDC DATABASES

                                          ATF                                          FBI
                                   National Repository                           Bomb Data Center
Database Details                AEXIS               BATS                              AIRS
Accessibility          •   Authorized National      •    Required software       •   Online via a secure
                           Repository staff              application provided        network, accessible
                                                         by the Repository           through a virtual
                       •   Access limited to one                                     private network
                           person within each       •    Internet connection
                           ATF field division            under mandatory         •   Different level of
                           office                        connection                  access to members
                                                         provisions                  of the BDC/SIG,
                       •   Read-only rights via                                      which is obtainable
                           a web-based              •    Qualified law               when certain criteria
                           querying feature to           enforcement                 are met
                           authorized state and          agencies must meet
                           local law                     certain requirements    •   LEO members who
                           enforcement                   and comply with             meet certain
                           agencies                      specific conditions         requirements

                       •   A valid network          •    A valid network         •   A valid network
                           username and                  username and                username and
                           password                      password                    password
                           are required                  are required                are required




Data Collection        •   Electronically           •    Electronically from     •   Electronically into
                           transferred from              members that have           AIRS by members of
                           N-Force through an            access to BATS.             the LEO and
                           acceptance or cancel                                      BDC/SIG
                           option made              •    Hardcopy reports
                           available to the end          from an                 •   Hardcopy via mail or
                           user.                         investigator’s notes        fax, on required
                                                         taken during an             incident and activity
                       •   Hardcopy via mail,            investigation or from       report forms
                           fax, email, reports of        reports from an
                           investigations,               agency’s case           •   Activity reports
                           photographs, and              management                  submissions are
                           phone calls.                  system.                     restricted to Special
                                                                                     Agent Bombing
                                                                                     Technicians and
                                                                                     bomb squad
                                                                                     members24




            24
             These reports contain data on activities on training exercises that are specific to this
    segment of the law enforcement community.



                                                    51
                                           ATF                                            FBI
                                    National Repository                             Bomb Data Center
Database Details                AEXIS                BATS                                AIRS
User Interface25       •   Patterned after          •   Web-based browser for       •   Web-style controls
                           Windows Explorer             productive user by the          for productive use by
                           with file structured         users                           the end users
                           for data storage         •   Maintenance screens to      •   Different work
                       •   Customized toolbars          create and update               modes and section
                       •   Navigational buttons         records                         identifiers
                           for moving from one      •   Search options by           •   Navigational buttons
                           section to another           incident, subject, or           for moving from one
                       •   Data validation per          device                          section to another
                           work sections            •   Import/export               •   Validation indicators
                       •   Wizard guide                 information to other            per work section
                       •   Incident search              users                       •   User’s guide link for
                           options                  •   Computer generated              referencing
                       •   Different field types        record number               •   Search features
                           for letters and          •   Restriction/unrestricted    •   Required field
                           special characters           options for data sharing        denotations
                       •   Drop down/pop-up         •   Geographic information      •   Drop down boxes
                           boxes for selecting          system                      •   Duplicate entry
                           data                     •   Edit features                   detection
                       •   Drag and drop            •   Printable reports           •   Computer generated
                           functions for                                                report numbers
                           merging records                                          •   Categorization of
                       •   Duplicate record                                             reports in “draft” or
                           reconciliation                                               “final” status
                           screens                                                  •   Printable reports
                       •   Computer generated
                           incident number
                       •   Hot key commands
                           entered from the
                           keyboard
                       •   Record sorting
                           options
                       •   Editing features
                       •   Theft/loss reporting
                       •   Tracing of explosives
                       •   Automated data
                           loading via web
                           interface from
                           federal reporting
                           agencies
                       •   Imaging
                       •   Web-based querying
                           and reporting
                       •   Printable reports




            25
               The purpose of this section of the analysis is to display the features available to an
    end user in interacting with the system to obtain arson and explosive intelligence information.
    The user interface for the AEXIS system should be viewed from the standpoint of the end user
    being the Repository staff interacting with the system to obtain arson and explosive
    intelligence information upon request to a given law enforcement agency.




                                                   52
                                            ATF                                                FBI
                                     National Repository                                 Bomb Data Center
Database Details                  AEXIS               BATS                                    AIRS
Data Field               •   Incident information      •    Incident                 •    Nature of Incident
Categories26             •   Suspects                  •    Investigator             •    Nature of Activity
                         •   Investigation                  information              •    Reporting Agency Data
                             participation             •    Incident details         •    Incident data
                         •   Evidence                  •    Devices                  •    Device data
                             components                •    Subjects/business
                                                            information

Types of outputs         •   Automated statistical     •    Incident reports per     •    Multiple outputs in
                             summary reports                record entry                  PDF, HTML, or Excel
                         •   Standard reports per      •    Audit reports for             format for various
                             record numbers                 managerial review             scenarios by the end
                         •   Tracing reports           •    Management reports            users or BDC staff
                         •   Reports from data              for the assessment
                             extractions from               an agency’s
                             AEXIS, NFIRS, and              performance
                             the UCR

Sharing                  •   Authorized members        •    Law enforcement          •    Authorized members of
capabilities                 of the Repository              agencies that have            BDC/SIG and LEO
                             staff                          access to BATS
                         •   ATF field divisions            under restricted or      •    Information provided
                         •   Information provided           unrestricted options          upon request to the
                             upon request to the                                          law enforcement
                             law enforcement                                              community by mail,
                             community by mail,                                           fax, or telephone by
                             fax, or telephone by                                         BDC staff
                             AEXIS staff
                         •   Authorized members
                             of the law
                             enforcement
                             community with
                             read-only rights
                             provided by ATF staff

     Source: This analysis is based on information obtained from the FBI’s Bomb Data Center and the ATF’s
             National Repository.




            26
               The available data fields within each of the respective categories are listed in detail
     in Appendix V.




                                                      53
                                                       APPENDIX V

SUMMARY OF THE DATA FIELDS FOR THE DATABASES OF THE
 ATF NATIONAL REPOSITORY AND FBI BOMB DATA CENTER

                               ATF’s AEXIS

Incident Summary Reports

   Incident Information

            A.     Investigation Title
            B.     Investigation Number
            C.     Date of Incident
            D.      Time of incident
            E.     AEXIS Identification
            F.     Jurisdiction
            G.      Incident Type/Subtype
            H.     Incident Address
            I.      Incident city
            J.     Target type
            K.       Structure type
            L.      Device location
            M.      Location description
            N.     Motive
            O.      Device delivery
            P.      Entry method
            Q.      Warning method
            R.     Dollar loss

   Suspects

           A.      Name
           B.      Social security number
           C.      Date of birth
           D.      Arresting agency
           E.      Other identification numbers
           F.      Notes about suspect

   Investigation Participation

              A.   Agency type
              B.   Department name
              C.   Agency’s contact name
              D.   Agency’s contact telephone number
              E.   Department case number



                                     54
       F.   Department address
       G.   Department city
       H.   Department state
       I.   Department country
       J.   Department zip code

Evidence Components

       Component Section

        A.   Sequence of evidence number
        B.   Evidence component type/subtype
        C.   Evidence common name
        D.   Evidence brand name
        E.   Evidence component use
        F.   Manufacturer
        G.   Country
        H.   Material

       Quantity Section

        A. Amount
        B. Units
        C. Model number
        D. Identification lot number
        E. Modified
        F. Improvised
        G. Fingerprints
        H. Hair/Fibers
        I. Length
        J. Width
        K. Diameter
        L. Height
        M. Percent
        N. Leg wire length
        O. Color




                            55
                            ATF’s BATS

Incident Summary Reports

Incident

           A.   Start date/time
           B.   End date/time
           C.   Street address
           D.   City/State/Zip
           E.   County
           F.   Additional directions

Investigator information

           A. Name
           B. Phone
           C. Email

Incident Details

           A. BATS incident identification number
           B. Agency identification number
           C. Type of incident
           D. Status of incident
           E. Level of investigation
           F. Incident target
           G. Target status
           H. Estimated damage
           I. Secondary target
           J. ATF involvement
           K. Primary bias
           L. Primary government association
           M. Method of entry
           N. Fire descriptors
           O. Collateral crimes
           P. Primary motivation
           Q. Area of placement/device origin
           R. Number injured
           S. Number killed




                                  56
Devices

          A.   Device name
          B.   Device type
          C.   Device placement
          D.   Country of origin
          E.   Device description
          F.   Device components
          G.   Device containers
          H.   Ignitions
          I.   Fillers
          J.   Military ordinance

Subjects/Business Information

          A.   Relationship(s)
          B.   Name
          C.   Other name(s) used
          D.   Business name
          E.   Primary phone
          F.   Secondary phone
          G.   Email
          H.   Social security number
          I.   Date of birth
          J.   Age
          K.   Ethnicity
          L.   Race
          M.   Sex
          N.   Hair color
          O.   Eye color
          P.    Height
          Q.   Weight
          R.   Street address
          S.   City/State/Zip
          T.   County
          U.   Country
          V.   Disposition




                               57
                                FBI’s AIRS
Incident Report

     Nature of Incident

              A.    Bombing
              B.    Attempted bombing
              C.    Recovery of incendiary explosive device
              D.    Accidental explosion
              E.    Hoax device
              F.    Theft of Explosives
              G.    Recovery of Explosives
              H.    Lost/Missing Explosives

     Reporting Agency Data

              A.     Agency name
              B.     Agency city
              C.     Agency street
              D.     Agency state
              E.    Agency telephone number
              F.    Agency fax number
              G.    Bomb squad identification number
              H.    NCIC number
              I.    Responding agency number
              J.    Investigating agency number
              K.     Agency zip code

     Incident Data

               A.   Incident start date and time
               B.   Incident end date and time
               C.   Incident street address
               D.    Incident city
               E.   Incident county
               F.   Incident state
               G.    Incident zip code
               H.   Target
               I.    Apparent involvement
               J.   Threat type
               K.   Method of delivery




                                     58
     Device Data

               A.    Quantity
               B.    Category
               C.    Device type
               D.    Subtype
               E.    External container

Activity Report

     Nature of Activity

               A.    Bomb squad training
               B.   Operational standby/special effects
               C.   Protective detail
               D.   Bomb threat call
               E.   Suspicious package call
               F.   Disposal of Explosives/Pyrotechnics
               G.   Assisting another agency

     Reporting Agency Data

               A.    Agency name
               B.    Agency street
               C.    Agency city
               D.    Agency state
               E.   Agency zip code
               F.   Agency telephone number
               G.   Agency fax number
               H.   Reporting officer
               I.   Responding agency number
               J.   Investigating agency number
               K.    Related file number

     Incident Data

               A.   Number of days
               B.   Incident start date and time
               C.   Incident end date and time
               D.   Number of personnel
               E.   Activity report detail
               F.   Incident county




                                     59
                                      APPENDIX VI

ATTORNEY GENERAL’S AUGUST 11, 2004, MEMORANDUM
   REGARDING THE COORDINATION OF EXPLOSIVES
      INVESTIGATIONS AND RELATED MATTERS




                      60
61
62
                                       APPENDIX VII

BUREAU OF ALCOHOL, TOBACCO, FIREARMS AND EXPLOSIVES’
        RESPONSE TO THE DRAFT AUDIT REPORT




                         63
                                      APPENDIX VIII

FEDERAL BUREAU OF INVESTIGATIONS’ RESPONSE TO THE
               DRAFT AUDIT REPORT




                       64
65
                                                       APPENDIX IX


    OFFICE OF THE INSPECTOR GENERAL, AUDIT DIVISION,
                ANALYSIS AND SUMMARY OF
         ACTIONS NECESSARY TO CLOSE THE REPORT


       In its September 27, 2004, response to the draft report, the
Bureau of Alcohol, Tobacco, Firearms, and Explosives (ATF) indicated
that it has established a Memorandum of Understanding (MOU) with all
Bombing and Arson Tracking System (BATS) users that requires
adherence to set standards. Additionally, the ATF has provided all
users with a guide containing standards on how to populate the
database with arson incidents and suspected misuse of explosives.
Furthermore, the ATF said it will periodically review a statistical sample
of the data contained within BATS to check for adherence to the
requirements prescribed in the MOU.

      In its September 23, 2004, response to the draft report, the
Federal Bureau of Investigation (FBI) agreed with our conclusion that
duplication of effort between the FBI and the ATF in compiling and
disseminating data on explosives incidents results in confusion and
inconsistency. However, despite the Attorney General’s memo of
August 11, 2004, which directed the Department to consolidate the
arson and explosive incidents databases under the ATF, the FBI
disagreed with recommendation 1, stating, “We disagree, however,
with the OIG’s recommendation in the first paragraph on page 37, that
the databases of the FBI and BATFE should be consolidated under the
BATFE.” Additionally, the FBI commented on other issues in the
report. These issues are addressed below:

       Executive Summary. Our draft report stated that the FBI does
not normally receive and record arson-only incidents. The FBI
commented that the Uniform Crime Reporting Act of 1988, 28 U.S.C.
534, and 28 C.F.R. 0.85 (f) clarifies that the FBI is directed to compile
criminal statistics (including arson statistics) from federal, state, and
local agencies and operate a central clearinghouse for police statistics
under the Uniform Crime Reporting Program. Additionally, the FBI
commented that the FBI’s Uniform Crime Report Program routinely
shares arson statistics with the ATF. On the basis of the FBI’s
comments, we revised the Executive Summary to show that the Bomb
Data Center (BDC), rather than the FBI as a whole, normally does not
receive and record arson-only incidents.



                                   66
       Automated Incident Reporting System (AIRS). The FBI stated in
its response that the COBRA system was implemented in 1998. In
addition, the FBI said it had provided all of the more than 440
accredited bomb squads in the United States with a COBRA system
with which they have had the ability to enter data directly into AIRS
since 1999. We added the FBI’s comments to the report.

       The FBI also stated in its response that since AIRS is a direct
entry system available to every bomb squad and the ATF’s BATS is a
pilot project available to only two departments, the Department should
continue to use AIRS. However, the FBI’s response also indicated that
direct entry into AIRS is optional. In fact, we found that thousands of
entries in AIRS were made by BDC and contract staff who transcribed
data from hard copies submitted by contributing agencies. In addition,
an October 1, 2004, FBI memorandum indicated that no data in the
COBRA system was in the AIRS database yet, but that data would be
converted and downloaded into AIRS over the next 60 days.

       Finally, the FBI commented on our statement that, “On
August 19, 2004, FBI officials indicated they did not want to include
subject and suspect data, or data related to juveniles,” in a
consolidated database. The FBI does not feel the Internet is an
appropriately secure means of interagency transmission of criminal
investigative information, particularly information that identifies
subjects, suspects, victims, witnesses, and juveniles. We agree and
clarified footnote 18 accordingly.

      The status of each recommendation, and the actions needed to
close the report, are summarized below. Recommendation 1 was
directed to the Department. Recommendation 2 was directed to ATF,
and recommendations 3 and 4 were directed to the FBI.

1. Resolved. This recommendation can be closed when we receive
   documentation from the Department showing that the Repository
   and BDC databases have been consolidated under ATF management
   in accordance with the Attorney General’s August 11, 2004,
   directive. Implementation milestones should be established and
   progress should be reported to the Office of the Inspector General
   every 90 days.

2. Resolved. The ATF indicated it has established an MOU with all
   BATS users and that it will periodically review a statistical sample of
   the data contained in BATS to check for adherence to the



                                   67
  requirements of the MOU. This recommendation can be closed
  when we receive a copy of the MOU and documentation showing
  that the ATF has reviewed a statistical sample of the data within
  BATS.

3. Unresolved. This recommendation was not addressed by the FBI
   in its September 23, 2004, response and is therefore unresolved.
   This recommendation can be resolved and closed when we receive
   documentation showing that the FBI has developed and
   implemented policies, procedures, and performance standards to
   ensure timely and accurate data entry into AIRS.

4. Resolved. This recommendation can be closed when we receive
   documentation showing that data from the COBRA server has
   been transferred to AIRS and that the FBI has taken steps to
   maximize the use of direct entry of data by participating agencies.




                                  68
